                 U.S. Department of Agriculture
                  Office of Inspector General
                      Great Plains Region
                          Audit Report


Farm Service A


                        Farm Service Agency
                      Risk Management Agency
                     2000 Crop Disaster Program




                                Report No.
                                50099-15-KC
                                SEPTEMBER 2003
                UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250




DATE:        September 30, 2003

REPLY TO
ATTN OF:     50099-15-KC

SUBJECT:     2000 Crop Disaster Program

TO:          James R. Little
             Administrator
             Farm Service Agency

             Ross J. Davidson, Jr.
             Administrator
             Risk Management Agency

ATTN:        T. Mike McCann
             Director
             Operations Review and Analysis Staff
             Farm Service Agency

             Michael Hand
             Deputy Administrator
              for Compliance
             Risk Management Agency


SUMMARY:

The objectives of our review were to assess the Farm Service Agency’s (FSA)
administration of the 2000 Crop Disaster Program (CDP) and determine the propriety of
program payments made to CDP participants. The results of our review indicated that
the county offices (CO) visited were generally administering the program in accordance
with program procedures. Therefore, we terminated our work after completing reviews
of 30 selected producers in 2 judgmentally selected States.

However, we did note that one FSA CO did not properly establish a unit structure and
three producers received excessive disaster program payments because of overstated
crop insurance indemnities. The review was designed to assess FSA’s administration
of the 2000 CDP and determine the propriety of program payments made to CDP
participants. During the review, we provided Statements of Conditions to the
North Dakota and Kansas State FSA offices and three reinsured companies (American
Farm Bureau Insurance Services, Inc., American Growers Insurance Company, and
James R. Little et al.                                                                    2


Fireman’s Fund) reporting administrative weaknesses, an improper unit structure, and
improper crop insurance indemnities. Responses to the Statements of Conditions were
considered in preparing this report. Exhibit A presents a summary of monetary results.

In their written comments to the draft report (see exhibits B and C) the agencies
generally agreed with the audit findings and recommendations and have initiated
corrective action. Based on the information provided in the responses, we were unable
to accept the management decisions for any of the recommendations contained herein.
Management decisions can be reached when FSA and Risk Management Agency
(RMA) provide the additional information and/or action outlined in the OIG Position
sections of the report.

BACKGROUND:

The Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriations Act 2001 (the Act) (Public Law 106-387), dated October 28, 2000,
authorized the fiscal year (FY) 2000 CDP and the Quality Loss Program (QLP) for quality
losses not covered by the 2000 CDP. The 2000 CDP already included quality loss
payments for many crops; however, QLP was a supplemental quality program for those
situations where the quality loss payments were inadequate or nonexistent.
The QLP-apples/potatoes (QLP-AP) provided coverage for apple and potato producers
who were not covered under the 2000 CDP. The legislation also authorized FSA
county committees (COC) to make changes to data provided by RMA.

The objective of CDP was to assist farmers who suffered losses to 2000 crops due to
natural disasters. Producers were eligible for CDP participation if they had suffered losses
exceeding 35 percent of historic yields. The 2000 CDP is based, in part, on 2000 crop
insurance indemnities. Eligible producers were compensated at 65 percent of crop
insurance market price elections for insured crop losses, 60 percent of the crop insurance
market price elections for uninsured crop losses, or 65 percent of the 5-year average price
for noninsurable crop losses.

FSA developed program regulations and procedures and delivered the program through
its network of field offices. As of March 1, 2002, CDP disbursements totaled about
$1.9 billion and QLP payments totaled about $131.6 million. Funding for the QLP-AP
was $38 million, while funding for the CDP and QLP was unlimited.

OBJECTIVES:

Our primary objectives were to assess FSA’s administration of the 2000 CDP, the
propriety of 2000 CDP and QLP payments made to the sampled producers, the
propriety of COC changes to RMA data, and the effectiveness of reconciliation reports
to monitor CO changes to data.
James R. Little et al.                                                               3


SCOPE AND METHODOLOGY:

Our review was performed in North Dakota and Kansas at 23 FSA CO’s. At the FSA
CO’s, we reviewed CDP applications for 30 selected producers. We also reviewed crop
insurance loss information from eight reinsured companies for these sampled producers
that received a CDP payment based on a 2000 crop insurance indemnity.

We obtained the 2000 CDP payments from FSA’s Producer Payment Reporting System
(PPRS) and determined that 14 States had over 75 percent of the program payments.
We selected a sample of 211 producers in the 14 States for review. We initiated our
review in only two States to determine if preliminary results warranted completing
additional reviews.

We conducted our review by gaining an understanding of applicable regulations,
policies, procedures, manuals, and instructions. To accomplish our objectives, we
reviewed CDP applications and supporting documentation, changes made to RMA data,
and changes listed on FSA’s reconciliation reports for our sample producers. We also
interviewed CO personnel, warehouse operators, and producers, as necessary, to meet
the review objectives. Prior to our fieldwork at the FSA CO’s, we obtained and reviewed
crop insurance claims data from applicable reinsured companies for our sample
producers to assess the reasonableness of the production to count, actual production
history, reported cause(s) of loss, and to determine if the indemnity was adequately
supported and correct.

CDP fieldwork was performed at 9 FSA CO’s in North Dakota and in 14 FSA CO’s in
Kansas from October 2002 through January 2003. At the CO’s in North Dakota, we
reviewed 15 insured sample producers. At the CO’s in Kansas, we reviewed 13 insured
and 2 non-insured sample producers.

Exhibit A presents the summary of monetary results for the review. The audit was
conducted in accordance with Government Auditing Standards.

AUDIT RESULTS:

Our review in the two cited States showed that the FSA CO's analyzed generally
administered the CDP in accordance with program procedures. Based on our initial
results, we discontinued our review of the 2000 CDP after completing analysis of
30 producers in the 2 States.

FSA:

Our review showed that (1) CDP payments were generally made in accordance with
program procedures, (2) COC changes to RMA data were properly supported,
(3) reconciliation reports were reviewed by FSA personnel to monitor changes made to
program data, (4) one related QLP payment was incorrect because of an improper crop
share received from RMA’s crop insurance program database, (5) 3 of 28 CDP
James R. Little et al.                                                                         4


payments were, in part, incorrect because of erroneous crop insurance indemnities, and
(6) CO and producer errors1 were generally administrative in nature and, in only one
instance, resulted in an overpayment of $400 because the producer’s share in an alfalfa
crop was overstated by 33.3 percent on one unit. This occurred because the Jewell
County, Kansas, CO did not properly determine the unit structure. On April 16, 2003,
the Kansas State FSA office agreed with the cited condition and stated that the unit
structure would be corrected and any overpayments reviewed for potential collection.

RMA:

Our review of 28 of 30 selected producers who were insured disclosed that
3 indemnities received were in error. This occurred because one reinsured company
improperly changed the cause of loss of wheat irrigated land and the loss adjustor used
the wrong production to establish the production to count, one reinsured company
incorrectly entered the producer’s share, and a loss adjustor made a computation error.
As a result, the insured producers received improper and/or excessive crop insurance
indemnities.

Insured Producer A - American Farm Bureau Insurance Services, Inc. - Kansas
Farm Bureau Insurance Company:

Our review of production worksheets for insured Producer A, Unit Numbers 100, 700,
and 801, showed that on August 2, 2000, the loss adjustor determined the primary
cause of loss on wheat as drought (50 percent) and a secondary cause of loss as
freeze (50 percent) on irrigated land. According to the RMA Loss Adjustment Manual,
drought is not an acceptable cause of loss on irrigated land. However, the Initial Proof
of Loss, also dated August 2, 2000, and completed by the loss adjustor, showed the
primary cause of loss for the units as insects. On August 21, 2000, the Final Proof of
Loss was prepared by the company and it showed the primary cause of loss as insects
and the secondary cause of loss as freeze. We contacted the loss adjustor and were
advised that any changes made on the initial Proof of Loss would have been initialed by
the loss adjustor and the change seemed questionable since it had not been initialed by
the loss adjustor. The Regional Claims Manager stated that there was no additional
documentation to support the change in the primary cause of loss on the Final Proof of
Loss. The Director of Claims stated that even though the loss file did not contain
documentation supporting the change in the cause of loss from drought to insect
damage, the change was viable, based on office staff knowledge of crop conditions and
acceptable causes of loss for any certain area and farming practice. In addition, our
review of insured Producer A showed that the production to count for wheat was
understated by 236.1 bushels for Unit Number 801 and overstated by 86.3 bushels on
Unit Number 802. This occurred because the loss adjustor used the wrong production
to establish the production to count on the units. As a result, the insured was overpaid
$498 on Unit Number 801 and underpaid $182 on Unit Number 802. The Director of
1
  COC’s did not always delegate authority to CO’s to administer the CDP, producers did not always
indicate the cause of loss on the CDP applications, and the CO, in one instance, did not properly
establish a unit structure.
James R. Little et al.                                                                             5


Claims agreed that the insured was overpaid $316. We concluded that the insured
received an improper indemnity, totaling $8,376, based, in part, on an unsupported
cause of loss.2

In order to ascertain whether the cited reinsured company had changed reported
ineligible causes of loss on irrigated land to eligible losses for others of its insureds, we
identified 10 additional Kansas Farm Bureau Insurance Company crop insurance
policies that showed insects as a cause of loss on irrigated land from RMA records. We
determined that 5 of the 10 policies actually had drought listed as a part or all of the
cause of loss prior to the completion of the Final Proof of Loss by the reinsured
company.       Based on our review, the five policyholders received questionable
indemnities of $8,979.

The action taken by the Kansas Farm Bureau Insurance Company on these cases was
referred to the Office of Inspector General – Investigations for its determination as to
whether a criminal investigation was warranted.           The amount of questionable
indemnities received by the cited six insureds totaled about $17,355. On April 28, 2003,
the Office of Inspector General – Investigations advised that an investigation would not
be scheduled due to the monetary amount involved and that the matter be referred to
RMA Compliance Division for further evaluation, examination, and/or administrative
remedy. Information concerning these cases has been provided to RMA Compliance
for its reviews and determinations.

Insured Producer B – American Growers Insurance Company:

Our review of the production worksheet, dated November 17, 2000, for a barley loss on
Unit Number 101 for the 2000 crop year, showed that the loss adjustor determined a
33.3 percent crop share for the producer. On November 20, 2000, the producer
certified that the information on the production worksheet was correct, and the claim
information was submitted to the company for payment. However, the Crop Claims
Worksheet (used by the company to determine the indemnity), dated
November 27, 2000, showed a 100 percent share for the producer was used to
calculate the indemnity on Unit Number 101. We concluded that the loss adjustor
correctly reported the producer’s share in the crop as 33.3 percent, but the producer
received excessive indemnity payments totaling $2,254,3 based on 100 percent share of
the production. In addition, two other producers each received a 33.3 percent share of
the indemnity for the same production loss under different crop insurance policies.

On March 10, 2003, the reinsured company agreed with our finding and on
April 30, 2003, the RMA Northern Compliance Office advised that RMA accounting
records for the insured were corrected to reflect the overpaid indemnity.



2
  Pending a determination by RMA to disapprove all or part of the indemnity, based on the unsupported
cause of loss, RMA may need to collect the overpaid indemnity of $316.
3
  $3,108 indemnity less $854 premium.
James R. Little et al.                                                                   6


Insured Producer C – Fireman’s Fund:

Our review of production worksheet for Unit Number 103, dated November 8, 2000,
showed that the loss adjustor determined 1,834.4 bushels of gross production. We
reviewed the calculations and determined 1,913.6 bushels as the correct gross
production. After adjustments were made to the gross production, we determined the
production to count was overstated by 11 bushels. We concluded that the insured was
overpaid $40 (11 bushels times $3.67).

On February 21, 2003, the reinsured company agreed with our finding but stated that no
further action would be taken, due to their monetary variance tolerance.

RECOMMENDATIONS TO THE RMA ADMINISTRATOR:

   1. Perform an Operations Review of Kansas Farm Bureau Insurance Company’s
      operations for the 2000, 2001, and 2002 crop insurance years to determine if
      other ineligible causes of loss for claims were improperly changed without
      supporting documentation. Recover any ineligible indemnity amounts disclosed
      by the review and report the monetary amounts collected to us.

       RMA RESPONSE:

       In its written response to the draft report (see exhibit C), RMA concurred with the
       recommendation and stated that the Central Regional Compliance Office
       (CRCO) has been requested to schedule an Operations Review of the Kansas
       Farm Bureau Insurance Company. RMA will notify us when a date has been
       chosen for completing the review.

       OIG POSITION:

       We concur with the proposed corrective action. To reach management decision,
       we need to be provided the timeframe for completing the planned Operations
       Review. Also, we will need documentation showing the details of RMA’s planned
       review and, for each overpayment identified, evidence that a bill for collection has
       been sent, the amount entered as a receivable in the agency’s accounting
       records, or documentation that the overpayment has been collected.

   2. Conduct a review of the six indemnities cited in this report under Insured
      Producer A and determine if the causes of loss were improperly changed without
      supporting documentation. Recover any ineligible indemnity amounts disclosed
      by the review and report the results to us.

       RMA RESPONSE:

       In its written response to the draft report (see exhibit C), RMA conditionally
       concurred with the recommendation and stated that CRCO will review and
James R. Little et al.                                                                  7


       validate the OIG findings and issue findings to the responsible insurance
       provider. Copies of the findings and determinations will be provided as they are
       issued.

       OIG POSITION:

       We concur with the proposed corrective action. To reach management decision,
       we need documentation showing the results of RMA’s review whether the causes
       of loss were improperly changed for the six indemnities cited in the report. We
       will also need documentation for each overpayment that a bill for collection has
       been sent, the amount entered as a receivable in the agency’s accounting
       records, or evidence that the overpayment has been collected. We will also need
       to be provided the timeframe for completing the planned actions.

   3. Report the corrected indemnity amounts to FSA for appropriate corrective action.

       RMA RESPONSE:

       In its written response to the draft report (see exhibit C), RMA conditionally
       concurred with the recommendation and stated that determination issued as a
       result of Recommendation No. 2 will be reported to FSA and RMA will provide us
       with any notifications sent to FSA.

       OIG POSITION:

       We do not agree with the proposed corrective action since it does not address
       forwarding to FSA the determinations made by RMA’s CRCO under
       Recommendation No. 1.             To reach management decision, we need
       documentation showing that FSA will be notified of any improper indemnities
       identified by the actions for both Recommendations Nos. 1 and 2. Also, we need
       to be provided a timeframe for completing the planned actions.

RECOMMENDATIONS TO THE FSA ADMINISTRATOR:

   4. Instruct the affected CO’s to determine if the six producers cited under
      Producer A received CDP payments, based on eligible causes of loss, and
      correct any improper CDP payments.

       FSA RESPONSE:

       In its written response to the draft report (see exhibit B), FSA concurred with the
       recommendation and stated that loss due to insects had not been determined to
       be an eligible cause of loss for the 2000 CDP. The CO’s are continuing their
       research and will provide feedback to the FSA National office as soon as
       possible.
James R. Little et al.                                                                  8


       OIG POSITION:

       We concur with the proposed corrective action. To reach management decision,
       we need documentation showing the action taken by the applicable CO’s for the
       six cited producers and, for each overpayment, that a bill for collection has been
       sent, the amount entered as a receivable in the agency’s accounting records, or
       evidence that the overpayment has been collected. Also, we need to be
       provided a timeframe for completing the planned actions.

   5. Instruct the affected CO to correct applicable CDP and QLP payments made to
      Producer B.

       FSA RESPONSE:

       In its written response to the draft report (see exhibit B), FSA concurred with the
       recommendation and stated that the North Dakota State office has instructed the
       CO to collect the CDP overpayment made to the cited producer.

       OIG POSITION:

       We concur with the proposed corrective action. To reach management decision,
       we need documentation showing that a bill for collection has been sent, the
       amount entered as a receivable in the agency’s accounting records, or evidence
       that the overpayment has been collected. Also, we need to be provided a
       timeframe for completing the planned actions.

   6. Followup with the Kansas State FSA office to ensure that the unit structure was
      corrected and any overpayment collected for the producer cited in the Statement
      of Condition provided to the Kansas State FSA office.

       FSA RESPONSE:

       In its written response to the draft report (see exhibit B), FSA concurred with the
       recommendation and stated that the CO has been instructed to review the
       producer’s application and take necessary corrective action to collect the
       overpayment.

       OIG POSITION:

       We concur with the proposed corrective action. To reach management decision,
       we need documentation showing that a bill for collection has been sent, the
       amount entered as a receivable in the agency’s accounting records, or evidence
       that the overpayment has been collected. Also, we need to be provided a
       timeframe for completing the planned actions.
James R. Little et al.                                                                  9


CONCLUSION AND REQUIRED AGENCY ACTION:

The FSA and the RMA responses to the official draft, dated September 22 and
September 15, 2003, respectively, are included in their entirety as exhibits B and C, with
excerpts and the Office of Inspector General’s position incorporated into the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days showing the requested information and the timeframes for implementation of
the recommendations for which management decisions have not yet been reached.
Please note that the regulation requires that management decisions be reached on all
findings and recommendations within a maximum of 6 months from the date of report
issuance, and final action to be taken within 1 year of each management decision.

/s/


RICHARD D. LONG
Assistant Inspector General
 for Audit
James R. Little et al.                                           10


   EXHIBIT A – SUMMARY OF MONETARY RESULTS

 Finding
   No.                    Description        Amount      Reference
    1    Overpaid indemnities                  $19,649       1/
         Incorrect Unit Structure                 $400       1/
1/ Questioned Costs, Recovery Recommended.




                                                         Page 1 of 1
James R. Little et al.                                      11



   EXHIBIT B – FSA’S RESPONSE TO THE DRAFT REPORT




                                                    Page 1 of 3
James R. Little et al.           12




                         Page 2 of 3
James R. Little et al.           13




                         Page 3 of 3
James R. Little et al.                                      14


   EXHIBIT C – RMA’S RESPONSE TO THE DRAFT REPORT




                                                    Page 1 of 2
James R. Little et al.           15




                         Page 2 of 2
Informational copies of this report have been distributed to:

Administrator, RMA                                      (3)
Administrator, FSA                                      (3)
Agency Liaison Officer, RMA                             (3)
Agency Liaison Officer, FSA                             (3)
General Accounting Office                       (1)
Office of Management and Budget                         (1)
Office of the Chief Financial Officer
      Director, Planning and Accountability Division    (1)
